e.g., APPENDIX A Court Opinion

COURTOF APPEALS FIFTH CIRCUIT

e.g.,APPENDIX A Court Opinion
8.

20-10224

Mr. Allen Glenn Thomas
Apartment C
2004 High Hill Boulevard
Dallas, TX 75203

J

■

4^

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

October 29, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-10224

Allen Thomas v. Tekle Abebe, et al
USDC No. 3:19-CV-1049

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41
govern costs, rehearings, and mandates.
5th Cir. R. 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court's opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion
of when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals.
5th Cir. R. 41 provides that a motion
for a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request.
The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari"
Additionally, you MU^T confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

The judgment entered provides that appellant pay to appellees the
costs on appeal, A bill of cost form is available on the court's
website www.ca5.uscourts.gov.

Sincerely,
LYLE W. CAYCE, Clerk

C,Aj\JfSrXj^
By:
Charles B.Whitney,Deputy Clerk
Enclosure(s)
Ms.
Mr.
Mr.
Mr.
Mr.

Cassie J. Dallas
Craig L. Dowis
Shelby Hall
Selim Hassan Taherzadeh
Allen Glenn .Thomas

iHnttcb States! Court of Appeals!
for tfje Jftft|) Circuit

United States Court of Appeals
Fifth Circuit

FILED
October 29, 2020
No. 20-10224
Summary Calendar

Lyle W. Cayce
Clerk

Allen Glenn Thomas,
Plaintiff—Appellant,
versus
Tekle Girma Abebe; Wolder Mariam Aster; Dallas Area
Habitat for Humanity, Incorporated and Dallas
Neighborhood Alliance for Habitat; William D. Hall,
Trustee; Neal Tomlins, Trusteefor ¥ & M Bank Trust
Company; Tarrance L. Hawkins; Cynthia Bryant,
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-1049

Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Pro se plaintiff-appellant Allen Glenn Thomas appeals the dismissal

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 20-10224

with prejudice of his claims pursuant to Fed. R. Civ. P. 12(b)(6). Thomas
contends that the district court erred in dismissing his claims, denying him a
discovery hearing, and denying him an opportunity to amend his complaint.
For the reasons stated herein, we AFFIRM.
I.
Thomas alleges that, while he was in prison, defendant-appellees
Tarrance L. Hawkins (his son) and Cynthia Bryant stole the deed to a
residential property owned by his mother. According to Thomas, Hawkins
subsequently gave or sold the property to Bryant, who sold it to the
defendant-appellees Dallas Neighborhood Alliance for Habitat and the Dallas
Area Habitat for Humanity, Inc. (hereinafter “the defendant charities”).
The defendant charities eventually sold the property to defendants Girma
Abebe Tekle and Aster Kifle Woldmariam. Liberally construed, Thomas’s
complaint asserts claims of fraud, conspiracy to commit fraud, violations of
the 5th and 14th Amendments of the U.S. Constitution, and Article I §§ 17,
19 of the Texas Constitution.1 In response to motions to dismiss filed by the
defendant charities and defendants Tekle and Woldmariam, Thomas also
alleged that the defendants had violated federal criminal statute 18 U.S.C. §
1001.
The district court, accepting the recommendations of the magistrate
judge, granted the motions to dismiss filed by the defendant charities and
Tekle and Woldmariam and sua sponte dismissed the claims against the
remaining, unserved defendants—Hawkins, Bryant, William D. Hall, and
Neal Tomlins. The court reasoned that Thomas failed to state claims of fraud

1 For the first time on appeal, Thomas expressly raises a claim under § 12.002 of
the Texas Civil Practice and Remedies Code. However, we “will not consider new claims
... presented for the first time on appeal.” Franklin v. Blair, 806 F. App’x 261, 263 (5th
Cir. 2020) (internal citations omitted).

2

No. 20-10224

or conspiracy to commit fraud, and could not bring his constitutional claims
against private citizens without any allegations of state involvement. The
court also held that Thomas had no private cause of action under 18 U.S.C.
§ 1001. The court dismissed the claims with prejudice—denying Thomas an
opportunity to amend his pleadings.
II.
“We review a district court’s grant of a motion to dismiss de novo.”
Boyd v. Driver, 579 F.3d 513, 515 (5th Cir. 2009). In so doing, we accept “all
well-pleaded facts as true, viewing them in the light most favorable to the
plaintiff.” Martin K. Eby Constr. Co. v. Dallas Area Rapid Transit, 369 F.3d
464, 467 (5th Cir. 2004) (quoting Jones v. Greninger, 188 F.3d 322, 324 (5th
Cir. 1999)). “To survive a Rule 12(b)(6) motion to dismiss, the plaintiff must
plead ‘enough facts to state a claim to relief that is plausible on its face. In
■>»

re Katrina Canal Breaches Litig., 495 F.3d 191, 205 (5th Cir. 2007) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
We review the “denial of leave to amend a complaint under Federal
Rule of Civil Procedure 15 for abuse of discretion. ” Mayeaux v. La. Health
Serv. and Indent. Co., 376 F.3d 420, 425 (5th Cir. 2004). A district court is
“entrusted with the discretion to grant or deny a motion to amend” and may
consider “undue delay, bad faith or dilatory motive on the part of the movant,
repeated failures to cure deficiencies by amendments previously allowed,
undue prejudice to the opposing party ..., and futility of the amendment. ”
Marucci Sports, L.L.C. v. Nat}l Collegiate Athletic Ass}n, 751 F.3d 368, 378
(5th Cir. 2014) (quoting Jones v. Robinson Prop. Grp., L.P., 427 F.3d 987,994
(5th Cir. 2005)). In addition, “it is not reversible error ‘in any case where the
pleadings, when viewed under the individual circumstances of the case,
demonstrate that the plaintiff has pleaded his best case. ’ ” Brown v. DFS
Servs., L.L.C., 434 F. App’x 347, 352 (5th Cir. 2011) (quoting Jacquez v.

3

No. 20-10224
Procunier, 801 F.2d 789,791 (5th Cir. 1986) (emphasis in original)).

HI.
The district court reasoned that Thomas failed to plead his fraud claim
with the particularity required by Fed. R. Civ. P. 9(b). We agree. “At a
minimum, Rule 9(b) requires allegations of the particulars of time, place, and
contents of the false representations, as well as the identity of the person
making the misrepresentation and what he obtained thereby.” Benchmark
Elecs.j Inc. v. J.M. Huber Corp., 343 F.3d 719, 724 (5th Cir. 2003) (quoting
Tel-PhonicServs.j Inc. v. TBSInt% Inc., 975 F.2d 1134,1139 (5th Cir. 1992)).
Thomas’s complaint, even liberally construed, fails to satisfy this
requirement. Because Thomas’s claim of conspiracy to commit fraud is
predicated on his fraud claim, it likewise fails. See Tummel v. Milane, 787 F.
App’x 226, 227 (5th Cir. 2019) (explaining that, under Texas law, “when
plaintiffs fail to state a claim for any underlying tort, their claims for civil
conspiracy likewise fail”).2
The district court further found that Thomas’s constitutional claims
brought pursuant to § 1983 failed because the defendants are private citizens,
and Thomas did not allege any involvement by state actors. Section 1983
provides a remedy for constitutional violations that occur “ ‘under color of’
state law.” Dennis v. Sparks, 449 U.S. 24,27 (1980). Accordingly, absent any
allegation that the defendants were “jointly engaged with state officials in the

2 Thomas contends that the district court failed to accept all pleaded facts as true
and relied on evidence outside of the pleading to rule on the motions. However, Thomas
cites no evidence of such errors and we find none in the district court’s opinion. Relatedly,
Thomas contends that the district court erred in denying him an “evidentiary/[d]iscovery
hearing.” We review the denial of an evidentiary hearing for abuse of discretion. See In re
Eckstein Marine Service L.L.C., 672 F.3d 310, 319 (5th Cir. 2012). Given that the district
court merely evaluated the sufficiency of Thomas’s pleadings pursuant to Rules 12(b)(6)
and 9(b), we find no abuse of discretion in denying Thomas an evidentiary hearing.

4

i

No. 20-10224

challenged action,” Thomas fails to state a claim under § 1983. Id. at 27-28.
Thomas’s claims under Sections 17 and 19 of the Texas Bill of Rights fail for
the same reason. See Republican Party of Texas v. Dietz, 940 S.W.2d 86, 8991 (Tex. 1997) (holding that claims under Article I of the Texas Constitution
require state action).
The district court also considered claims under 18 U.S.C. § 1001
raised by Thomas in response to defendants’ motions, and correctly held that
he did not have a private cause of action under that federal criminal statute.
SeeAli v. Shabazz, 8 F.3d 22,22 (5th Cir. 1993) (“In order for a private right
of action to exist under a criminal statute, there must be ‘a statutory basis for
inferring that a civil cause of action of some sort lay in favor of someone. ’ ”)
(quoting Cort v. Ash, 422 U.S. 66,79 (1975)); see also AirTrans, Inc. v. Mead,
389 F.3d 594, 597 n.l (6th Cir. 2004) (finding “no right to bring a private
action under” 18 U.S.C. § 1001).
Thomas challenges the district court’s decision to dismiss sua sponte
the foregoing claims against those defendants that had not been properly
served—Hawkins, Bryant, Hall, and Tomlins. He contends that he sent
summons via certified mail to those four defendants and indicates that he
received a return receipt from Hawkins. Thomas thus argues that the
defendants had been properly served and that the district court should have
entered judgment by default against those defendants. However, a review of .
the record reveals that Thomas never filed proof of service as to any of these
defendants. See Fed. R. Civ. P. 4(1)(1) (“Unless service is waived, proof
of service must be made to the court” in the form of the “server’s
affidavit.”). “No person need defend an action nor suffer judgment against
him unless he has been served with process and properly brought before the
court.” Broadcast Music, Inc. v. M.T.S. Enters., Inc., 811 F.2d 278, 282 (5th
Cir. 1987). Accordingly, contrary to Thomas’s contention, the district court
could not have entered judgment against these defendants. See, e.g., Smith v.

5

No. 20-10224

Okla. ex rel. Tulsa Cty. Dist. Att’y Office, 798 F. App’x 319, 321 (10th Cir.
2020) (explaining that, because the plaintiff had not “file[d] a proof of
service, . . . the court clerk had no basis to enter a default against the
defendants”). In any case, Thomas failed to raise this issue below in his
objections to the magistrate judge’s recommendations and thus waived the
argument. SeeF.D.I.C. v. Mijalis, 15 F.3d 1314,1327 (5th Cir. 1994) (“If an
argument is not raised to such a degree that the district court has an
opportunity to rule on it, we will not address it on appeal. ”).
Finally, Thomas appeals the district court’s denial of an opportunity
to amend his pleadings. In dismissing Thomas’s claims with prejudice, the
district court reasoned that Thomas had “alleged his best case” and no
further opportunity to amend was warranted. The court emphasized that, in
responding to defendants’ motions, Thomas had failed to “specify or clarify
the alleged fraud by the moving defendants or against the unserved
defendants” and that repleading his constitutional and criminal claims would
be futile. Generally, “a pro se litigant should be offered an opportunity to
amend his complaint before it is dismissed. ” Brewster v. Dretke, 587 F.3d 764,
767-68 (5th Cir. 2009) (citing Bazrowxv. Scott, 136 F.3d 1053,1054 (5th Cir.
1998)). However, “[g]ranting leave to amend is not required, ... if the
plaintiff has already pleaded his ‘best case.’” Id. at 768. We thus find no
abuse of discretion in the district court’s decision. See Mayeaux, 376 F.3d at
425.
IV.
For the foregoing reasons, we AFFIRM the dismissal of Thomas’s
claims with prejudice.

6

e.g., APPENDIX B Court Opinion

Trial Court UNITEDSTATES DISTRIC COUR FOR THE NORTHERN DISTRIC OFTEXASDAL

e.g.,APPENDI BCOurtOpinion
9.

S

Case: 3:19-cv-1049

Document: 24

Allen Glenn Thomas
2004 High Hill Blvd Apt C
Dallas, Tx 75203-3824

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ALLEN GLENN THOMAS,
Plaintiff,
v.
GIRMA ABEBE TEKLE, et al,
Defendants.

)
)
)
)
)
)
)
)

)

Civil Action No. 3:19-CV-I049-C-BH

ORDER
Before the Court are the Findings. Conclusions, and Recommendation of the United
States Magistrate Judge therein advising the Court that Defendants’ Motions to Dismiss should
be granted and that Plaintiff s Complaint should be dismissed with prejudice as to all
Defendants. i
The Court conducts a de novo review of those portions of the Magistrate Judge’s report or
specified proposed findings or recommendations to which a timely objection is made. 28 U.S.C.
§ 636(bXlXQ- Portions of the report or proposed findings or recommendations that are not the
subject of a timely objection will be accepted by the Court unless they are clearly erroneous or
I
contrary to law. See United States v. Wilson, 864 F.2d 1219,1221 (5th Cir. 1989).
After due consideration and having conducted a de novo review, the Court finds that
Plaintiffs objections should be OVERRULED.2 The Court has further conducted an
independent review of the Magistrate Judge’s findings and conclusions and finds no error. It is
i

Plaintiff filed objections to the Magistrate Judge’s Repot and Recommendation on February 7,

2020.

2 To the extent Plaintiff requests that an evidentiary hearing be held, the Court is of the opinion
that the same should be DENIED.

therefore ORDERED that the Findings, Conclusions, and Recommendation are hereby
ADOPTED as the findings and conclusions of the Court. For the reasons stated therein,
Defendants’ Motions to Dismiss are hereby GRANTED and Plaintiffs Complaint is
DISMISSED with prejudice.3
SO ORDERED this

& day of February, 2020.

T JUDGE

3 Defendants* Alternative Motions for a More Definite Statement are DENIED AS MOOT.
2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ALLEN GLENN THOMAS,

)
)
)
)
)
)
)
)

Plaintiff,
v.
GIRMA ABEBE TEKLE, et a/.,
Defendants.

)

Civil Action No. 3:19-CV-1049-C-BH

FINAL JUDGMENT
For the reasons stated in the Court's Order of even date,
IT IS ORDERED, ADJUDGED, AND DECREED that Plaintiff's claims against
Girma Abebe Tekle, Aster Kifle Woldmariam, Dallas Area Habitat for Humanity, Inc. and
Dallas Neighborhood Alliance for Habitat are DISMISSED with prejudice.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that Plaintiffs claims
against the remaining Defendants are sua sponte DISMISSED with prejudice for failure to state
a claim upon which relief n^y be granted. Costs shall be taxed against Plaintiff
SIGNED this

day of February, 1020.

J *

S.

GS
[OR UNITED STA
C

ITRICT JUDGE

Case 3:19-cv-01049-C-BH Document 15 Filed 01/08/20

Page 1 of 12 PagelD 478

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ALLEN GLENN THOMAS,
Plaintiff,
vs.

§
§
§
§
§
§
§

TEKLE GIRMA ABEBE, et. al,
Defendants.

Civil Action No. 3:19-CV-1049-C-BH

Referred to U.S. Magistrate Judge1

FINDINGS. CONCLUSIONS. AND RECOMMENDATION
Before the Court are Defendants Dallas Area Habitat for Humanity, Inc. and Dallas
Neighborhood Alliancefor Habitat Motion to Dismiss Plaintiff’s Complaint or Alternatively, Motion
for a More Definite Statement, filed May 30,2019 (doc. 8), and Defendants GirmaAbebe Tekle and
Aster Kifle Woldmariam’s Rule 12(b)(6) Motion to Dismiss, or Alternatively, Rule 12(e) Motionfor
a More Definite Statement, filed June 28, 2019 (doc. 12). Based on the relevant filings and
applicable law, the motions to dismiss should be GRANTED, any remaining and new claims
should be dismissed sua sponte, and the plaintiff s complaint should be DISMISSED with
prejudice for failure to state a claim as to all defendants. The alternative motions for a more
definite statement are DENIED as moot.
I. BACKGROUND
This case arises out of the transfer and sale of the residential property located at 1911
McBroom St., Dallas Texas 75212 (Property), which was originally owned by the mother of Allen
Glenn Thomas (Plaintiff), (doc. 3 at 1.) Plaintiff alleges that while he was in prison and his mother
was in a nursing home, his son, Tarrance L. Hawkins (Son), and Cynthia Bryant (Bryant) stole the

1 By Special Order 3-251, this pro se case has been referred for full case management, including the
determination of non-dispositive motions and issuance of findings of fact and recommendations on dispositive motions.

Case 3:19-cv-01049-C-BH Document 15 Filed 01/08/20

Page 3 of 12 PagelD480

doc. 12 at 4-6.)
A.

Rule 12(b¥61
Rule 12(b)(6) allows motions to dismiss for failure to state a claim upon which relief can be

granted. Fed. R. Civ.P. 12(b)(6). Under the 12(b)(6) standard, a court cannot look beyond the face
of the pleadings. Baker v. Putnal, 75 F.3d 190, 196 (5th Cir. 1996); see also Spivey v. Robertson,
197 F.3d 772, 774 (5th Cir. 1999), cert, denied, 530 U.S. 1229 (2000). It is well-established that
“pro se complaints are held to less stringent standards than formal pleadings drafted by lawyers.”
Miller v. Stanmore, 636 F.2d 986, 988 (5th Cir. 1981). Nonetheless, regardless of whether the
plaintiff is proceeding pro se or is represented by counsel, pleadings must show specific, wellpleaded facts, not mere conclusory allegations to avoid dismissal. Guidry v. Bank ofLaPlace, 954
F.2d 278,281 (5th Cir. 1992). The court must accept those well-pleaded facts as true and view them
in the light most favorable to the plaintiff. Baker, 75 F.3d at 196.
“[A] well-pleaded complaint may proceed even if it strikes a savvy judge that actual proof
of [the alleged] facts is improbable, and ‘that a recovery is very remote and unlikely.”’ Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 556 (2007) (citation omitted). Nevertheless, a plaintiff must
provide “more than labels and conclusions, and a formulaic recitation of the elements of a cause of
action will not do.” Id. at 555; accord Ashcroft v. Iqbal, 556 U.S. 662,678 (2009) (emphasizing that
“the tenet that a court must accept as true all of the allegations contained in a complaint is inap­
plicable to legal conclusions”). The alleged facts must “raise a right to relief above the speculative
level.” Twombly, 550 U.S. at 555. In short, a complaint fails to state a claim upon which relief may
be granted when it fails to plead “enough facts to state a claim to relief that is plausible on its face.”
Id. at 570.

3

Case 3:19-cv-01049-C-BH Document 15 Filed 01/08/20

Page 5 of 12 PagelD482

“[A]rticulating the elements of fraud with particularity requires a plaintiff to specify the statements
contended to be fraudulent, identify the speaker, state when and where the statements were made,
and explain why the statements were fraudulent.” Williams v. WMXTechs., 112 F.3d 175, 177 (5th
Cir. 1997). “Put simply, Rule 9(b) requires ‘the who, what, when, where, and how’ to be laid out”
with respect to a fraud claim. Benchmark Electronics, Inc. v. J.M. Huber Corp., 343 F.3d 719, 724
(5th Cir. 2003) (quoting Williams, 112 F.3d at 179).
Here, Plaintiff generally alleges that Defendants fraudulently attempted to gain control of
his “heirship” Property, but he fails to allege what material misrepresentation was made, who made
it, when it was made, or how he relied upon it to his detriment. The extent of Defendants’ alleged
involvement in the fraud is Charities’ purchase of the Property, which it then sold it to Residents.
Plaintiffs conclusory allegations do not meet the heightened pleading requirements of Rule 9(b),
so the motions to dismiss his fraud claim for failure to state a claim for relief should be granted.4
III. REMAINING CLAIMS
Plaintiffs complaint may be liberally construed as also asserting a claim that the defendants
conspired to commit fraud, (doc. 3 at 1.) He also claims based on federal law, the Fifth and
Fourteenth Amendments ofthe Constitution, 42 U.S.C. § 1983, and Article I §§ 17,19oftheTexas
Constitution, (doc. 3 at 4.) The defendants have not moved to dismiss these claims.
A court may sua sponte dismiss a plaintiffs claims on its own motion under Rule 12(b)(6)
for failure to state a claim as long as the plaintiff has notice of the Court’s intention and an
opportunity respond. See Carroll v. Fort James Corp., 470 F.3d 1171, 1177 (5th Cir. 2006) (citing
Shawnee Int’l., N. V. v. Hondo Drilling Co., 742 F.2d 234, 236 (5th Cir. 1984)). “The fourteen-day

4 Because Defendants’ initial arguments concerning the fraud claim are dispositive, the Court does not
reach their limitations argument. (See docs. 9 at 4; 12 at 5-6.)

5

Case 3:19-cv-01049-C-BH Document 15 Filed 01/08/20

Page 7 of 12 PagelD484

of the conspiracy. His conspiracy claim is predicated on his fraud claim, so it likewise fails. See
Mathis v. DCR Mortg. IllSub, I, LLC, 952 F.Supp.2d 828, 836 (W.D. Tex. 2013) (finding plaintiffs
civil conspiracy claim was predicated primarily on his fraud claims, and it failed alongside those
claims). Plaintiffs claim for conspiracy to commit fraud should be dismissed sua sponte.
B.

Constitutional Claims
Plaintiffs allegations that the fraudulent transfers violate his rights under the Fifth and

Fourteenth Amendments of the Constitution cannot support a cause of action.

The Fifth

Amendment’s due process clause only applies to the actions of the federal government, and the
Fourteenth Amendment’s due process clause applies to municipalities. Morin v. Caire, 77 F.3d 116,
120 (5th Cir. 1996). Constitutional due process protections do not extend to private conduct.
Mantle v. Upper Deck Co., 956 F. Supp. 719, 734 (N.D. Tex. 1997) (citing Davis v. Prudential
Secs., Inc., 59F.3d 1186,1190-91 (11th Cir.1995)). Plaintiff fails to allege what process was owed
to him, how his rights were violated, or that any state actors were involved in the series of transfers.
Because Defendants are private citizens, any claims under the Fifth and Fourteenth Amendments
should be sua sponte dismissed.5
Plaintiff similarly fails to state a § 1983 claim against Defendants because they are private
citizens. “Section 1983 provides a federal cause of action for the deprivation, under color of law,
of a citizen’s ‘rights, privileges, or immunities secured by the Constitution and laws’ of the United

5 Plaintiffs claim under Article I § 19 of the Texas Constitution fails for the same reasons. Section 19 has
traditionally been viewed as co-extensive with the United States Constitution’s due process of law. McPeters v.
LexisNexis, 910 F. Supp. 2d 981, 991 (S.D. Tex. 2012), on reconsideration, 11 F. Supp. 3d 789 (S.D. Tex. 2014)
(citing Armstrong v. Randle, SSI S.W.2d 53, 56 (Tex.App.1994)). It has not been held to provide any greater
protection than that afforded by the United States Constitution’s Due Process Clause. Cravin v. State, 95 S.W.3d
506, 510 n. 3 (Tex.App.—Houston [IstDist.] 2002, pet. refd).

7

Case 3:19-cv-01049-C-BH Document 15 Filed 01/08/20

Page 9 of 12 PagelD486

IV. NEW CLAIMS
Plaintiffs response to Defendants’ motions to dismiss asserts that Defendants “committed
crimes” in violation of criminal statute 18 U.S.C. § 1001. (docs. 11 at 2; 14 at 2.) Because this
claim was raised for the first time in his response, it is not part of the pleadings to be considered for
purposes of the motion to dismiss. See Hearn v. Deutsche Bank Nat. Trust Co., 3:13-CV-2417-B
2014 WL 4055473 at*4n.3 (N.D.Tex. Aug. 15,2014); Middleton v. Life Ins. Co. ofNorth America,
H-09-CV-3270, 2010 WL 582552 at *5 (S.D. Tex. Feb. 12, 2010) (claim raised for first time in
response to motion to dismiss was not properly before the Court) (citing Fisher v. Metro. Life Ins.
Co., 895 F.2d 1073, 1078 (5th Cir. 1990)). He has not been granted leave to amend his complaint
to add these allegations, and he has not shown that the defendants consented to an amendment. See
Fed. R. Civ. P. 15(a)(2). Nevertheless, because the pro se response may be liberally construed as
a request for leave to amend his complaint, this claim is also addressed in an abundance of caution.
See Cash v. Jefferson Assocs., Inc., 978 F.2d 217, 218 (5th Cir. 1992) (deciding that a response to
a motion to dismiss, in which plaintiff first alleged that she had been willfully discriminated against,
should be treated as a motion to amend her pleadings).
Plaintiff contends that he has stated a claim to relief because Defendants “committed crimes”
in violation of federal criminal statute 18. U.S.C. § 1001 (making false statements to an agency of
the United States). “[P]rivate citizens do not have the right to bring a private action under a federal
criminal statute,” however. Sappore v. Arlington Career Inst., No. 3:09-CV-1671-N, 2010 WL
446076, at *2 (N.D. Tex. Feb. 8, 2010) (citing Pierre v. Guidry, IS F. App’x 300, 301 (5th Cir.
2003) (per curiam)). Plaintiff cannot enforce a criminal statute in a civil action. See Florance v.
Buchmeyer, 500 F. Supp. 2d at 626 (N.D. Tex. 2007); see, e.g, Algoe v. Tex., Nos. 3:15-CV-1162-D,

9

Case 3:19-cv-01049-C-BH Document 15 Filed 01/08/20

Page 11 of 12 PagelD 488

VI. OPPORTUNITY TO AMEND
Notwithstanding a pro se party’s failure to plead sufficient facts, the Fifth Circuit is inclined
to give pro se plaintiffs several opportunities to state a claim upon which relief can be granted. See
Scott v. Byrnes, No. 3:07-CV-1975-D, 2008 WL 398314, at *1 (N.D. Tex. Feb. 13, 2008); Sims v.
Tester, No. 3:00-CV-0863-D, 2001 WL 627600, at *2 (N.D. Tex. Feb. 13, 2001). Courts therefore
typically allow pro se plaintiffs to amend their complaints when the action is to be dismissed by
court order. See Robinette v. Merrill Lynch, Pierce, Fenner & Smith, Inc., No. 3:96-CV-2923-D,
2004 WL 789870, at *2 (N.D. Tex. Apr. 12,2004); Sims, 2001 WL 627600, at *2. A pro se plaintiff
may also obtain leave to amend his complaint in response to a recommended dismissal. See Swanson
v. Aegis Commc’ns Grp., Inc., No. 3:09-CV-0041-D, 2010 WL 26459, at * 1 (N.D. Tex. Jan. 5,
2010). Nevertheless, courts may appropriately dismiss an action with prejudice without giving an
opportunity to amend when the plaintiff fails to respond to a motion to dismiss after being
specifically invited to do so by the court and the plaintiff has had ample opportunity to amend the
complaint. Rodriguez v. United States, 66 F.3d 95, 97 (5th Cir. 1995). Dismissal with prejudice is
also appropriate if a court finds that the plaintiff has alleged his or her best case. Jones v. Greninger,
188 F.3d 322, 327 (5th Cir. 1999).
Here, all of Plaintiff s claims are based on alleged transfers of the Property deed more than
ten years ago. His response does not specify or clarify the alleged fraud by the moving defendants
or against the unserved defendants; he merely reasserts constitutional provisions and adds a criminal
statute as a basis for his suit. It does not appear that he could successfully state a claim for relief
even if provided an opportunity to amend because none of the defendants are state actors, and he
cannot assert claims under criminal statutes. It appears that he has alleged his best case, and no

11

